IN THE SUPREME COURT OF THE UNITED STATES

GREGORY BARTUNEK/

SuPrem

4^,us.

Petitioner/

* 72020

V.

OFFICE of

UNITED STATES OF AMERICA/
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit

PETITION FOR WRIT OF CERTIORARI

Gregory P. Bartunek
29948-047
Federal Correctional Institution
P.0. Box 9000
Seagoville/ TX 75159

RECEIVED
JAN - 5 2021

lt*FCLEFiK

QUESTIONS PRESENTED

I.

WHETHER THE FEDERAL RULES OF CRIMINAL PROCEDURE
ARE UNCONSTITUTIONALLY OVERBROAD AND VAGUE

II.

WHETHER WARRANTS BASED ON INTERNET PROTOCOL ADDRESSES SHOULD BE
TREATED LIKE INFORMANT'S TIPS TO POLICE

i
i

LIST OF THE PARTIES
All parties appear in the caption of the cover page.
\

RELATED CASES
Gregory Bartunek v. United States of America
"Petition for Writ of Habeas Corpus"
D. Neb., 8:18CV440, Denied & Dismissed, Jan. 8, 2019
8th Circuit, 19-1248, Affirmed, Feb. 12, 2019
Supreme Court, 19-6880, Denied, Jan. 13, 2020
United States of America v. Gregory Bartunek
"Appeal of Detention Order"
D. Neb • / 8:17CR28 #223, Motion Denied, Nov. 8, 2017
8th Circuit, 17-3593, Affirmed, Feb. 15, 2018
Supreme Court, 18-5617, Denied, Oct. 1, 2018
Gregory P. Bartunek v. Omaha Police, et al.
"Unconstitional Search Warrant"
"
D. Neb., 8:16CV568, Dismissed by Plaintiff, May 4, 2017

ii

TABLE OF CONTENTS

i

Questions Presented
List of Parties

ii

Related Cases

ii
iii

Table of Contents

vi

Table of Authorities
Opinions Below

1

Basis for Jurisdiction

1

Constitution Provisions/ Treaties/ Statutes/ OrdanceS/ and Regulations ... 1
1

Statement of the Case
A.

The Search Warrant

2

B.

The Government's Extrinsic Evidence

7

C.

Motions In Limine

8

D.

Hearing on Motion In Limine

10

E.

The Trial

11

F.

The Court of Appeals Ruling

18
22

Reasons For Granting The Writ
I.

Whether The Federal Rules Of Criminal Procedure Are
Unconstitutionally Overbroad and Vague .....................

22

A.

Rule 104 Irregularities

25

B.

Ommission Of Limiting Instructions

30

C.

The Res Gestae Evidence Circumvented the Rules of Evidence .... 31

D.

Other Act Evidence Admitted Under the Wrong Rule of Evidence .. 32

E.

Evidence Admitted Under Rule 404 and 414 Allows
Inadmissible Propensity Evidence..........................

32

F.

Rule 403 Balancing Was Not Don Or Done Improperly

33

G.

"Other Act" Evidence Should Be Independently Evaluated

34

H.

Why are Feder Rules of Evidence So Often Violated?

34

iii

II.

Whether Warrants Based on Internet Protocl Addresses
Should Be Treated Like Informant's Tips To Police ..

35

III. Considerations for Granting Review

38

Conclusion

40
Appendix

[1]

Opinion of the United States Court of Appeals for the Eigth Circuit

[2]

Order Granting Extention of Time to File Petition for Rehearing

[3]

Petion for Rehearing

[4]

Order Denying Petition for Rehearing

[5]

Amendment I

[6]

Amendment IV

[7]

Amendment V

[8]

Amendment VI

[9]

18 U.S.C. § 2252

[10]

18 U.SVC. § 2252A

[11]

Rule 102

[12]

Rule 103

[13]

Rule 104

[14]

Rule 105

[15]

Rule 401

j[ 16 ]

Rule 402

[17]

Rule,403

[18]

Rule 404

[19]

Rule 414

[20]

Rule 802

[21]

Bartunek Affidavit and Application For Issuance Of A Search Warrant

[22]

Manning Application For Search Warrant And Supporting Affidavit

iv

[23]

Unreliable Informants: IP Addresses/ Digital Tips and Police Raids

[24]

National Center For Missing and Exploited Children (NCMEC)
Cybertipline Report

[25]

COX Communications Subpoena Response

[26]

Bartunek Criminal Record Report

[27]

Return of Evidence Police Report 2002 Search

[28]

Partial Transcript from Preliminary Hearing in Sarpe County in 2002

v

TABLE OF AUTHORITIES
Cases
Arnold v. MaxMind/ Inc/ 216 F. Supp. 3d 1275 (10th Cir. 2014)

36

Arizona v. Hicks, 480 US 312 (1987)

7

Ballenbach v. United States, 326 US 607 (1945)

25

Carpenter v. Stanley, 753 F.3d 114 (3rd Cir. 2014)

36, 39

Coolidge v. New Hampshire, 400 US 443 (1971)

7

Franks v. Deleware, 438 US 154 (1978)

6, 37

Grohn v. Ramirez, 540 US 551 (2004)

3

Guam v. Shymanovitz, 157 F.3d 1154 (9th Cir. 1997)

26

Huddleston v. United States, 485 US 681 (1988)

26

Illinois v. Gates, 462 US 213 (1983)

3, 4, 6, 37

Jacobson v. United States, 503 US 540 (1991)

28

Jenkirts v. Commonwealth of Kentucky, 275 S.W.3d 226 (Ky.App. 2008)

26

Kyllo v. United States, 553 US 27 (2001)

3

Michelson v. United States, 335 US 469 (1948)

27

Old Chief v. United States, 519 US 172 (1997)

29

Shannon v. Koehler, 2011 U.S. Dist. LEXIS 157049 (N.D. Iowa 2011)

29

Stanley v. Georgia, 394 US 557 (1969)

19, 20

State v. Adamo, 2018-NMCA-013, 409 P.3d 1002 (N-M Ct. App. 2017)

26

State v. Reid, 194 N.J. 386, 945 A.2d 26 (N.J. 2008)

39

Thomasson v. Perry, 80 F.3d 915 (4th Cir. 1995)

19

United States v. Ameri, 297 F. Supp. 2d 1168 (8th Cir. 2004)
United States v. Bartunek, 969 F.3d 860 (8th Cir. 2020)

21, 32
1

United States v. Biswell, 700 F.3d 1210 (10th Cir. 1983)

34

United States v. Bowie, 232 F.3d 923 (D.C. Cir. 2000)

11

United States v. Brown, 923 F.2d 109 (8th Cir. 1991)

10

vi

3

United States v. Buchanna, 574 F.3d 554 (8th Cir. 2009)

United States v. Caldwell, 1999 U.S.Dist. LEXIS 7417(6th Cir. 1999)..16, 18
- United States v. Chase, 367 Fed. Appx. 979 (11th Cir. 2010)

17

United States v. Christie, 624 F.3d 558 (3rd Cir. 2010).

26

United States v. Conner, 853 F.3d 1011 (7th Cir. 2009)

32

United States v. Coreas, 419 F.3d 151 (2nd Cir. 2005)

5

United States v. Crowder, 141 F.3d 1202 (D.C. Cir. 1998)

30

United States v. Cunningham, 702 Fed. Appx. 489 (8th Cir. 2017),.... 10, 32
United States v. Curtin, 489 F.3d 935 (9th Cir. 2007)

33

United States v. De Carlo, 458 F.2d 358 (3rd Cir. 1972)

31

United States v. Evans, 802 F.3d 942 (8th Cir. 2015)

26

United States v. Farlee, 757 F.3d 810 (8th Cir. 2014)

3

United States v. Fechner, 952 F.3d 954 (8th Cir. 2020)
United States v. Gomez, 763 F.3d 845 (7th Cir. 2014)
United States v. Gorman, 613 F.3d 711 (7th Cir. 2010)

16
26-30, 33
32

United States v. Green, 617 F.3d 233 (3rd Cir. 2010)

10, 32

United States v. Green, 648 F.2d 587 (9th Cir. 1981)

34

United States v. Heckenkamp, 482 F.3d 1142 (9th Cir. 2006)

36

United States v. Heidebur, 122 F.3d 577 (8th Cir. 1997) ..

16, 18

United States v. Hinkel, 837 F.3d 111 (1st Cir. 2016)

26

United States v. Horn, 523 F.3d 882 (8th Cir. 2008)

10

United States v. Jenkins, 7 F.3d 803 (8th Cir. 1993)

30

United States v. Johnson, 238 F. Supp. 2d 1168 (8th Cir. 2004)

21, 32

United States v. Johnson, 439 F.3d 947 (8th Cir. 2006)

14

United States v. Langley, 549 F.3d 726 (8th Cir. 2008)

,26,,35

United States v..Lapsiris, 570 F.3d 758 (6th Cir. 2009)

6

United States v. Lee, 724 F.3d 968 (7th Cir. 2013)

vii

29

United States v. Leon/ 468 US 897 (1984)

6, 38

United Statesvv. Lewis, 693 F.2d 189 (D.C. Cir. 1982)
United States v. Lindsey, 702 F.3d 1092 (8th Cir. 1987)

, 26, 31
11

United States v. Manning, Case No. 0:18CR102 (D. Min. 2018)
United States v. McBride, 862 F.2d 1316 (8th Cir. 1988))
United States v. McClain, 440 F.2d 241 (D.C; Cir. 1970)

2
34
12, 30

United States v.lPalega, 556 F.3d 709 (8th Cir. 2009)
United States v. Riepe, 858 F.3d 552 (8th Cir. 2017)

5
10, 33

United States v. Schneider, 817 F. Supp. 2d 586 (3rd Cir. 20110

26

United. States v. Sheldon, 628 F.2d 54 (D.C. Cir. 1980)

34

United States v. Silva, 380 F.3d 1010 (7th Cir. 2004)

15

United States v. Stanley, 753 F.3d 114 (3rd Cir. 2014)

36, 39

United States v. Sumner, 119 F.3d 658 (8th Cir. 1997)

29, 32

Warr v. State, 418 S.W.3d 617 (Tex. App. 2009)

26

Statutes
18 U.S.C. § 2252

11

18 U.S.C. § 2252A

1

18 U.S.C. § 3231

2

28 U.S.C. § 1254

1

Rules
102

1, 24, 31

103

1

104

1, 14, 15

105

1, 13, 15

401

1, 10, 12, 14, 15, 17, 21, 24,30

402

1, 21, 24

403

1, 10-17, 20, 21, 24, 25, 29-34
viii

404

1, 7, 8, 10-15, 17, 18, 20, 22-25, 27-29, 31-33

414

1, 7, 8, 10, 13, 15, 20, 22, 23, 29, 32

802

1, 8, 15, 21

Res Gestae

10, 11, 15, 18, 20, 23, 26, 31, 33, 34

United States Constitution
1, 19, 20, 39

Amendment I

1, 3, 6, 19, 35, 38, 39

Amendment IV

1, 38, 39

Amendment V

1, 15, 22, 39

Amendment VI
Other Authorities

Unreliable Informants: IP Addresses, Digital Tips and Police Raids,
"Electronic Frontier Foundation" (EFF.org 2016)

ix

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to
review the judgment below.
OPINIONS BELOW
The Opinion of the United States Court of Appeals for the Eighth
Circuit appears at Appendix [1] to the petition and is reported at United
States v. Bartunek/ 969 F.3d 860 (8th Cir. 2020).
The Order granting an extention of time to file a Petition for
Rehearing appears at Appendix [2] to the petition and is unreported.
The Petition for Rehearing appears at Appendix [3] and is unreported.
The Order denying the Petition for Rehearing appears at Appendix [4]
and is unreported.
JURISDICTION
The Judgment of the Court of Appeals for the Eighth Circuit was
entered on August 12, 2020.

Bartunek sought an extention of time in which

to file a Petition for Rehearing, . and the Court granted the extention until
October 20, 2020.

The Petition was timely filed on September 29, 2020.

Petition was denied on October 20,'2020.
filed.

The

This Petition has been timely

Jurisdiction is proper under 28 U.S.C. § 1254.

CONSTITUTIONAL PROVISIONS, TREATIES, STATUTES, ORDANCES, AND REGULATIONS
Amendments I, IV, V, and VI of the U.S. Constitution
18 U.S.C. §2252 and § 2252A
Rules 102, 103, 104, 105, 401, 402, 403, 404, 414, and 802
STATEMENT OF THE CASE
Bartunek was convicted of Count I - 18 U.S.C. § 2252A(a)(2)
Distribution, and Count II - 18 U.S.C. § 2252(a)(4)(B) Possession of child
1

pornography in the United States District Court for the District of Nebraska.
Jurisdiction was proper under 18 U.S.C. § 3231.

During the trial, the

government introduced evidence both intrinsic and extrinsic to the crimes
charged.

The questions presented in this Petition are whether this evidence

was improperly admitted in violation of Federal Rules of Criminal Procedure,
United States Statutes, and Amendements to the U. S. Constitution, which
affected Bartunek's substantial rights to such an extent that it affected
the fairness, integrity and public reputation of the judicial proceedinas.
A.

The Search Warrant

On May 25, 2016 a Nebraska issued search warrant was executed on
Bartunek's residence by the Omaha Police, et al.

The warrant was based on

a "bare bones" affidavit, lacking in probable cause to issue it.

This can

easily be shown by comparing the Bartunek Affidavit (Doc. 106-1) with the
Manning Affidavit (United States v. Manning, Case No. 0:18CR102 (D. Min.
2018), Doc. 33-1).

(See Appendices [15] and [16]).

Below is a quick

comparison table of the two affidavits:

No.
1
2
3
4
5
6
7
8
9
10
11
12

Item
Affidavit Length
Factual Grounds Length
Affiant's Training and Experience
Role of NCMEC in Law Enforcement
Identified Omegle as an ESP
Described How Omegle Works
Determined Residence Ownership
Extensive Surveillance was Performed
Role of the Internet in Crimes
Computer as a Repository of Evidence
Justified Items to Search and Seize
Described Characteristics of Collectors

Bartunek
4 pages
1 page
No
No
No
No
No
No
No
No
..No
No

Manning
10 pages
6 pages
Yes @ p. 4
Yes @ p. 4
Yes @ p. 4
Yes @ p. 5
Yes @ p. 6
Yes @ p. 7
Yes @ p. 7
Yes @ p. 7-8
Yes @ p. 8-9
Yes d1 p. 9

From the above table, it is quite easy to see how "bare bones" the
Bartunek Affidavit was.

It lacked the necessary factual details for the

issuing judge to determine whether there was probable cause to believe child

2

pornography would be found.

This issuing judge simply accepted the Affiant's

assumptions, allegations, and conclusions without any factual basis for
doing so.
The express purpose of the Fourth Amendment is to secure the "houses,
papers and effects" of this nation^s citizens from governmental intrusion,
U.S. Const • / Am. IV, and so its protective force is strongest at the private
home's doorstep.

Kyllo v. United States, 553 US 27, 31 (2001).

Thus, any

police official seeking to invade a private home must first obtain a valid
search warrant upon showing probable cause to the satisfaction of a neutral
magistrated.

Groh v. Ramirez, 540 US 551, 559-60 (2004).

"When a magistrate

relies soley on an affidavit to issue the warrant, only that information
which is found within .the four corners of the affidavit may be considered in
determining the existence of probable cause."
F.3d 810, 819 (8th Cir. 2014).

United States v. Farlee, 757

Probable cause means that, given all the

circumstances set forth in the affidavit, there exists sufficient
information to conclude "there is a fair probability that contraband or
evidence of a crime will be found in a particular place."
Gates, 462 US 213, 238 (1983).

Illinois v.

The warrant affidavit in this case failed to

demonstrate the requisite probable-cause, and thus, its fruits must be
suppressed.
The basis of issuing the warrant was from tripple hearsay evidence from
an informant, Omegle.com.

However, there was no information in the affidavit

to determine the identity of the owner of that domain.

Omegle.com was not

identified as a person, business, ISP, ESP, or other entity,
stark contrast to the Manning Affidavit,

This is in

"When probable cause is based on

information supplied by an informant, the core question is whether the
information is reliable."

United States v. Buchanna, 574 F.3d 554, 561
3

(8th Cir. 2009).

See also: United States v. Williams/ 10 F.3d 590/ 593

(8th Cir. 1993); Illinois v. Gates/ 462 US 213/ 238 (1983).

In this case/

there was no information in the affidavit showing the informant's identity/
let alone its reliability/ verasity/ or basis of knowledge required to
support probable cause to issue the warrant.
The only information provided to the police from the informant was
that an image of apparant child pornography came across an IP address/ two
months before the warrant was issued.

"That fact alone/ without further

corroboration/ is analogous to an anonymous tip that alleges some criminal
activity is occurring at someone's home but provides no further information
to corroborate the claim."

Unreliable Informants IP Addresses/ Digital

Tips and Police Raids (September 2016)/ by the Electronic Frontier
Foundation: at p. 15:

https://www.eff.org/files/2016/09/22/2016.09.20

final formated ip address white paper 0.pdf.

(See Appendix [17]).

"Courts

and Police must apply the same skepticism of anonymous informants to IP
addresses."

(Id.).

Unlike the Manning Affidavit/ no reason was given in the Bartunek
Affidavit to believe that there was a fair probability that child pornography
would be found in Bartunek's home.

At the beginning of the Bartunek .

Affidavit/ Affiant David Pecha stated that he believed that images and
evidence of child pornography would be found in Bartunek's property/ but
failed to state why he believed this was true.

His only conclusion was that

child pornography was uploaded to Omegle.com from Bartuhek;':s address,

He

failed to show why this single isolated event supported his initial claim.
He did not state that his training and experience supported his claims/ like
the Manning Affidavit did.

He did not include any facts about collectors

of child pornography either/ or that Bartunek was such a collector/ or the
4

relevance of this towards finding probable cause.

See United States v.

Coreas'/ 419 F.3d 151/ 156 (2n Cir. 2005).
Prior to the trial, Bartunek filed motions to suppress the seized
evidence.
motions.

(Docs. 47, 48, 70, 73, 80, 82, 85).
(Doc. 208).

The court overruled all the

The court assumed that the informant, was reliable

and that because the investigating officer provided a description of the
image, this corroborated the informant's tip.

However,

the officer's c

conclusion about the image was not independent, but dependent directly on
the informaiton supplied by the informant.

This was not an independent

investigation, and therefore not corroborating information.

Furthermore,

the equivocal description of the image was simply a conclusion of the .:
officer, without any factual basis shown as to how he determined the age of
the individual in the image or whether or not the image was real or a fake.
The Affidavit also mentioned a crimestoppers tip years earlier, but
it is unclear how many years ago it occurred.

See United States v. Palega,

556 F.3d 709, 715 (8th Cir. 2009) (holding that it is infufficient for
probable cause to exist "as of sometime in the past."),

Furthermore,

neither the Omegle.com informant nor the crimestoppers informant were shown
to be reliable.

Indeed, the affiant later stated that the crimestoppers tip

lacked sufficient evidence to issue a warrant.

(Trial at 283:1-23).

And

since the only "evidence" of a crime was based soley on unreliable In
informants, eliminating this information from the warrant removed any

■n

v ■

probable cause for issuing the warrant, whatsoever.
Both the issuing judge and the court assumed that Omegle.com was a
corporate ISP or ESP, that was required by law to report such information
to NCMEC, and therefor, a presumption of reliability existed.
the point.

They missed

There was absolutely no information in the affidavit showing
5

that Omegle.com was even a business/ let alone a corporation/ ISP/ or ESP/
or that it was required to report to the NCMEC.

Nothing in the four corners

of the affidavit supported the court's conclusion,

"Sufficient information

must be presented to the magistrate to allow that official to determine
probable cause; his action cannot be a; mere ratification of bare bones
conclusions of others."

'.'The

Illinois v. Gates/ 462 US 213/ 239 (1983).

NCMEC neither investigates nor vouches for the accuracty of the information
reported to itself

•

•

•

"
■

It is simply a "clearinghouse".

Lapsins, 570 F.3d 758/ 762 (6th Cir. 2009).

United States v.

(See. Appendix [24]).

The

issuing judge and the court also erroneously assumed that the information
However/ COX made it very clear that

from COX was credible and accurate.

it "cannot guarantee that they [thier records] necessarily represent

;;

information linking the identified customer to your [Police!s]
investigation."

• vai

(See Appendix [25]).

The..affiant's failure to fully discose these technology limitations
are grounds for voiding a warrant/ because the Fourth Amendment requires
candor "to allow the [issuing judge] to make an independent evaluation of
the matter."

Franks v. Delaware/ 438 US 154/ 165 (1978).

Faced with these

flaws/ the court may conclude that the results of the illegal search could
still be admissible pursuant to the Leon Good-Faith exception.
v. Leon, 468 US 897/919-20 (1984).

United States

However/ well-established precedent

precludes reliance on a warrant based on a "bare bones" affidavit such as
this one.

Id.

Comparing the Bartunek Affidavit with the Manning Affidavit

makes it clear that the Bartunek Affidavit was so "bare bones" and so
lacking in probable cause that it was objectively unreasonable, and thus
suppression is mandated.
Suppression of the doll and underwear evidence was also required
6

because their seizure did not fall under the "plain site" exception.
were not listed in the items to be searched or seized.
i, proximity of other items seized.

They

They were not in the

During the search/ Officer Stigge took

the pictures, and when asked why, he stated, "Just — there was a bit of
unusualness to it, so I wanted to document it in the best we could."
at 218:16-17).

(Trial

Although the dolls and underwear were in plain site, there

was no probable cause to believe that they were associated with any criminal
activity.

Coolidge v. New Hampshire, 403 US 443, 465-471 (19710.

During the search, the police moved the dolls, undressed them,: and
posed them to take thier pictures.

Officer Stigge stated that, "We did

; >>.

alter that one just a bit." referring to one of the dolls.

(Trial at 213:4).

And agin he said, "We — they were moved."

Officer Pecha

(id. at 215:4).

confirmed this stating, "I believe at the time they [dolls] were placed on
the bed."

(06/22/2017 Hearing at 52:12).

an illegal search.

Clearly, these actions constituted

Arizona v. Hicks, 480 US 312 (1987) (where moving a

piece of stereo equipment constituted an illegal search).
B.

The Government's Extrinsic Evidence

On April 28, 2017 the government filed a Notice of Intent to offer
Rule 404(b) and 414 evidence at trial: 1)^allegations by S.P. that Bartunek
sexually assaulted him and showed him child pornography; 2) Crimestoppers
Tip alleging possession of child pornography in 2013; and 3) a sexual contact
allegation by K.H. in 2015.

(Doc. 77).

Bartunek was charged with sexually

assaulting S.P., but the charges were dismissed.

(See Appendix- [26]).

The government also intended to introduce evidence that Bartunek showed
child pornography to S.P • / but Bartunek was never charged with this offense.
Furthermore, a search was performed at the time, but noochild pornography
was found.

(02/28/2017 Hearing at 7:2-16).
7

And, all items seized were

returned to Bartunek.

(See Appendicies [27]/ [28]). In addition/ S.P. was

•at least 14 years old at the time/ barring admission under Rule 414.

The

Crimestoppers Tip was hearsay evidence from an anonymous informant/ barring
admission under Rule 802 and the confrontation clause under the Sixth
Amendment of the United States Constitution.

Both the Crimstoppers Tip and

the K.H. allegation lacked probable cause to even issue a warrant.
Furthermore/ the K.H. incident was not sexual assault/ barring admission under
Rule 414.

Even so/ the government didn't use the K.H. evidence at trial.

On October 24/ 2018 the government filed its Trial Brief.

(Doc. 336).

Over half of the brief was devoded to evidence extrinsic to the crimes
charged.
;

In addition to the evidence included in its previous notice/ the

government intended to introduce additional Rule-404(b) evidence:

4) dolls

and underwear; 5) child erotica; and 6) file names with titles consistent
with child pornography.

As previously discussed/ this evidence was the

result of an illegal search and seizure and should have been suppressed.
Never-the-less/ it was admitted at trial,

According to the government/ the

purpose of introducing the doll and underwear evidence/ as well as the child
erotica and file names/ was to show that Bartunek had a "sexual interest in
prepubescent children"/ to show his "intent."

(Doc. 336 at p. 7).

And it

intended to use the other three prior incidents pursuant to Rules 404(b) and
414 for the same purpose/ to show intent.
C.

(Doc. 336 at p. 9).

Motions in Linirae

Bartunek filed several pro se motions in limine.
73/ 80, 82, 291, 292/ 293, 294, 295).
(Docs. 208, 301).

(Docs. 70/ 71/ 72/

These were all denied by Judge Rossiter.

Andrew Wilson, CJA Panel Attorney for Bartunek, filed
(Doc. 340).

a Motion in Limine on October 26, 2018.
until the day of the trial.

It was not ruled upon

In his motion, he asked the court to prohibit
8

testimony from S.P. and K.H. and prohibit the offering of evidence of the
dolls.

However/ he failed to include the underwear, child erotica, or file

names in his motion.

He argued that admission of the doll evidence and

testimony was not allowed under any Rule of Evidence, because the only
purpose was to prove a person's character, and its prejudicial value
outweighed its probative value.
It is quite clear that the government intended to use this extrinsic
evidence to show that Bartunek was a disturbed sexual preditor.
at p. 8-9).

(Doc. 24

The government previously used this same evidence as the sole

reason to deny Bartunek bail.

During the bail hearings, Government Prosecutor

Michael Norris' entire argument on why Bartunek should be denied bail was
based on the extrinsic evidence, not the crimes Bartunek was charged with.
(02/23/2017 Hearing at 11:8-18:14; 02/28/2017 Hearing at 5:1-8:15).

Other

individuals with the same charges, even with a criminal history, were
regularly released in the past,

(02/23/2017 Hearing at 5:24-6:8).

so, Judge Rossiter denied Bartunek bail.

(Doc. 28).

Even

In particular, Norris

used the doll and underwear evidence to shock and confuse the jury as he
did with the judges.

As Magistrate Susan Bazis said, "Now Exhibit C [the

dolls] is — is probably more concerning ..."
12).

(02/23/3017 Hearing atl7:8-

And Norris stated "I think the court can also look at how those dolls

are dressed — in Exhibit 2C and the fact they are in the bedroom.'1"
at 17:16-21).
(Id. at 17:22).

To which Judge Bazis replied, "No question.

(Id.

It's wierd ..."

The dolls had a similar affect on Judge Rossiter, who stated,

"I am also concerned about Exhibit ;— at least at this point by Exhibit
2C and what it depicts — I believe it depicts with the life-sized dolls.
(02/28/2017 Hearing at 13:21-23).

9

D.

Hearing on Motion in Limine

On October 29, 2018, the first day of trial, a hearing was held before
Judge Rossiter on Wilson's Motion in Limine,

Wilson's brief argument was

only one-half of a page long in the trial transcript, and only addressed the
S.P. allegations.

(Trial at 3:19-4:6).

others speak for themselves."

Wilson added, "But I'll let — the

(Id. at 4:4).

ruling to overrule the motion at that time.

Judge Rossiter made a tentative
(Id. at 4:9-19).

However, the

court failed to identify the Rule.404(b) or 414 components that formed the
basis of the rulings.
Cir. 1991).

(See United States v. Brown, 923 F.2d 109, 111 (8th

Judge Rossiter also failed to do so when the evidence was

additted in the trial.

He did express uncertainty about admitting the S.P.

evidence because of his age.

(Trial at 4:9-19).

to balance against 403, but failed to do so.

He stated that he needed

(Id.).

"Reversal is appropriate only if the trial court failed to engate in
the required balancing process or where it is impossible to determine
from the record whether it did or not." United States v. Riepe, 858
F.3d 552, 56-61 (8th Cir. 2017); United States v. Horn, 523 F.3d
882, 888 (8th Cir. 2008).
When Judge Rossiter asked Norris if he wished to be heard, Norris said he
did, and that, "I especially want to be heard on the dolls ... and underwear."
(Trial at 4:20-23).
5:1-9:12).

Norris' argument was almost fivb pages l©ng.

(Id. at

Then Norris talked the judge into believing that the doll and th

the underwear evidence should come in under Rule 401, not 403, claiming that
it was inextrincably;::intertwined.

(Id. at 20:25-11:23).

Res gestae, or intrinsice evidence "includes botheevidence that is
inextricably entertwined with the crime charged, as well as evidence
that merely complets the story or provides context to the charged
crime." United States v. Cunningham, 702 Fed. Appx. 489, 492)
(8th Cir.i 2017).
However, res gestae is a "mind-numbing and elastic term" which1'"pretends
much but means little." United States v. Green, 617 F.3d 233, 244 n. 9
(3rd Cir. 2010).
10

Norris intentially did this in order to confuse and mislead the judge and
later the jury, and to prevent the court from giving an limiting instruction.
(Trial at 11:11-22).
The designation of evidence as "inectricably intertwined" unduly
deprives the defendant of the right to a limiting instruction.
United States v. Bowie, 232 F.3d 923, 927-28 (D.C. Cir. 2000).
"The presence of a limiting instruction diminishes the danger of any
unfair prejudice arising from the admission of other acts." United
States v. Lindsey, 702 f.3d 1092, 1099 (8th Cir. 1997).
E.

The Trial

The "prior acts" evidence constituted sighificantnportions of the tria
trial, including the government's opening and closing statements, as wel as
from testimony of four of the government's nine, witnesses.

During the

opening statement, the government discussed the doll and underwear evidence
(Trial at 113:1-7^23:)). the child erotica (Id. at 112:9-15), and the file
names (Id. at 115:11-14).
The first four government witnesses simply layed the foundation to
admit the Omegle.com evidence.

(Trial at 118:9-202:9).

At the end of Mark

Dishaw's testimony, he testified that the reason the case was assigned to
David Pecha was because of a Crimstopper's Tip in 2013.
202:9).

Wilson objected based on relevance and Rule 404.

(Id. at 199:4(Id.)

Judge

Rbssiter was uncertain if it was relevant but overruled the objections
anyway.

(id.).

However, he failed to address the 404 objection or perform

a 403 analysis, or to give a limiting instruction.

(Id.) • / As with the

doll evidence, Norris convinced Judge Rossiter that this was also "res
gestae" evidence to again mislead and confuse bothe the judge and the jury.
Withbut limiting instructions, the jury was free to consider the evidence
for any purpose whatsoever, including character and propensity evidence.

11

"We hold that whenever evidence is admitted for a limited purpose/
it is plain error, in absence of a manifest waiver, to omit an
immediate cautionary instruction." United States v. McClain, 440
f.2d 241, 246 (D.C. Cir. 1970).
"The danger of prejudicial effect from such evidence is so great that
only an immediate and contemporaneious instruction can be considered
sufficient to protect defendants." (Id.).
"As long as we have rules of evidence which admit testimony for some
purpose.,.. but not fbr'-others, we must guard against misuse by the
jury." (Id.).
The fifth witness, Brandon Stigge, talked about the search and seizure
of Bartunek's residence, and their interrogation of Bartunek on the day of
the search.

(Trial at 202:11-250:23).

When Stiggecintroduced the doll •

evidence, Wilson objected based on Rule 404.

(id. at 211:12-212:13).

Judge

Rossiter said, "I think it's a 401 issue and not a 404 —", and overrulled
the objection on"that basis.

(Id.).: Oneeiag&ifijlJudge Rossiter failed to

address the 404 objection or perform a 403 analysis or to give a limiting
instruction.

Stigge's testimony about the dolls continued.

(Id. at 212:4-

219:23).

Stigge then introduced the underwear evidence,

220:10).

This time, Wilson failed to object, and no 404 v. 403 balancing

was done, nor was a limiting instruction given.

(id. at 212:24-

Judge Rossiter later tried

to clarify' that the doll evidence was relevant under Rule 401 as
circumstantial evidence, not 404(b).

(Id. at 221:7—222:15).

The next day,

Judge Rossiter indicated that he performed a 403 evaluation on the doll
evidence, but failed, to indicate the 404(b)(2) purpose for its admission.
(Id. at 226:4-12).

Stigge continued to elaborate on the doll and underwear

evidence over Wilson's objections.

(Id. at 227:8-230:12, 232:20-233:3).

And later he testified about interrogating Bartunek about the dolls.
at 241:23-243:21).

(Id.

Again, Wilson objected based on relevance and his motion

in limine, but the judge overruled his motions without a 404 v. 403 balancing,
or giving a limiting instruction.
12

The sixth witness was S.P.

(Trial at 256:18-277:10).

Wilson objected

to his testimony/ but Judge Rossiter admitted it under 404(b)/ and indicated
that he weighed it under 403 and found it proper,
also gave a limiting instruction,

(id. at 257:9-14).

(IcL at 257:21-258:20).

During S.P.'s

(Id. at 264:5).

testimony/ he indicated that he was arrested,

He

Then during

cross-examination/ S.P. stated that he was arrested for sexually assaulting
another individual.

(Id. at 267:23-268:5).

happened/ S.P. replied/ "In 2002.

When Wilson asked him when it

Which it was Greg's victim too."

(id).

Wilson failed to object to the testomony at that time/ but did later during
Norris' redirect of S.P.

(Id. at 269:1-270:8).

A lengthly sidebar

discussion commenced/ based on Wilson's motion in limine and an argument
insued on whether Wilson "opened the door" to Bartunek's alleged sexual
assault.

(Id. at 270:9-275:7).

(Id. at 275:9).

However/ Wilson's motions were overruled.

Over Wilson's objections/ S.P. was allowed to testify fu

further about his crime and the other individual and his relationship with
Bartunek.

Because this additional testimony went beyond its limited purpose/

Judge Rossiter should have immediately given a new limiting instruction/
but did not.

(Rule 105).

Furthermore/ neither the alleged assault of

S.P./ nor the other individual/ should have been allowed.

This was character

evidence/ and both S.P. and the other individual were at least 14 years old
at the time.

(See Appendix [3] at p. 8-9).

Therefore/ its admission was

barred by rules 403, 404, and 414. Most importantly, all this information
was known to the prosecutors and the courts in 2002, when Bartunek was
charged with assaulting S.P • / and yet he was not charged with possession of
child pornography, or the alleged assault of the other individual.

Two

different courts dismissed the charges and wouldn't even pursue a misdemeanor
charge.

(See Appendix [20]).

In order for this past act evidence to be

13

admissible/ "proff must be introduced sufficient to support a finding that
the fact does exist."

(Rule 104(b)).

In other words, the court must find

that the S.P. alleged acts were "supported by sufficient evidence to support
a.!.finding by a jury that the defendant committed the prior act[s]."
States v. Johnson, 439 F.3d 947, 952 (8th Cir. 2006).

United

S.P.'s uncorroborated

and inconsistent testimony alone was simply not enough to show this, in light
of the fact that two prosecutors, knowing all the facts at the time, failed
to bring Bartunek to trial in 2002 on any charges, whatsoever.
Pecha was the next witness to testify.

(Trial at 278:8-382:9).

Immediately after establishing Pecha's experience and;.duties with the; Omaha ::
Police Department, testimony was solicited regarding the 2013 Crimestoppers
Tip.

(Id. at 279:17-290:23).

Rule* 403.;

Wilson objected to this testimony based on

(Id. at 279:24-280:9).

Judge Rossiter again overruled his

objection, without providing the 404(b) purpose of the testimony, or
performing a 403 analysis, or giving any limiting instructions.
280:10-11).
told him.

(Id. at

Norris later asked Pecha about what the Crimestoppers Tipster
(Id. at /282:1-283:5).

"relevance". (Id. at 282:18).
what happens."

Wilson objected based on "hearsay" and

Norris interruped saying, "Context as to

(Id. at 282:19).

Judge Rossiter immediately overruled the

objection without taking any further action.

(Id. at 282:20).

Pecha went

on to testify about the details of his "Knock and Talk" investigation with
Bartunek resulting from the Crimestoppers Tip.

(Id. at 283:4-286:17).

Included was testimony about a traffic cone found on Bartunek's vehicle
with the word "CHIMO" (Child MOlester) writtent on it.

(Id. at 284:9-16).

At the conclusion, Wilson objected and moved to strike the entire testimony.
based on Rules 401, 403, and 404.
(Id. 287:1-290:12).

(Id. at 286:20-22).

At sidebar was held.

Norris made it very clear that Bartunek's behavior
14

during the Knock and Talk showed that he was "evasive."

(Id. at 287:4-14).

Clearly/ this was character evidence# forbidden by rule 404.

Not only was

this forbidden by that rule but also Rules 104# 105/ 401/ 403/ and 802.
Wilson then moved for a mistrial based on this testimony and the fact that
Pecha stated that the tip was for child pornography.
Wilson's objections and motions were overruled.

(Id. at 288:4-10).

(Id. at 290:8-14).

Judge

Rossiter made"it clear that he believed the testimony was res gestae
evidence# as he gave a limiting instruction stating that it was offered for
"background and context."

(Id. at 290:13-22).

"Allowing agents to narriate the course of their investigation# and
thus spread before jurors darning information that is not subject to
cross-examination# would go far toward abrogating the defendant's
rights under the [Sjixth [Ajmendment and hearsay rule." "United
States v. Silva, 380 F.3d 1010# 1020 (7th Cir. 2004).
Pecha went on to describe the search and seizure of Bartunek's residence on
May 25# 2016#:and the interrogation of Bartunek immediately after.
. at 291:4-316:25).

(Trial

Wilson objected to the introduction of the evidence

from the search and seisure based on a previous suppression motion# but
his motion was overruled.

(Id. at 293:2-6).

discussed the dolls with Bartunek.

During the interrogation# Pecha

(Id. at 315:2-316:20).

Wilson again

objected based on a previous suppression motion# and again was overruled.
(Id. at 314:8-15).

However he failed to object to any of the siezed

evidence or testimony based on 401# 403#. 404# or 414.
The remainder of Pecha's testimony was about Pecha's forensice
investigation of the items seized from Bartunek's residence.
359:21).

(Id. at 317:1-

The first item discussed was a thumb drive# Ex. 34# which Pecha

claimed contained 357 items of child pornography or child erotica.
323:8-335:4).
child erotica.

'(Id. at

However# according to the Trial Brief# it only contained
(Doc. 336 at p. 4).

Wilson failed to object to this 404
15

evidence, and no 403 analysis was performed, nor was.a limiting instruction
given.

Although Pecha claimed that three of the images were child

pornography, they were not.

They were: 1) an image of adult pornography

with a banner from a legal gay website, Ex. 34.1; 2) an image of a nude,
Ex. 34.2; and 3) an image of a child fooling around in his underwear, Ex.
34.2.

It is clear that Norris was trying to convince the judge and the

jury that the images of child erotica were intermingled with other images
of child pornography and get the evidence admiited as res gestae evidence,
avaiding any 403 balancing test or limiting instructions.
evidence was inadmissable.

However this

(See United States v. Fechner, 952 F.3d 954,

961 (8th Cir. 2020) (where child erotica found on an SD card with child
pornography.was not intrinsice to the charge of transporting and receiving
child pornography, and inadmissable.)
122 F.3d 577, 580 (8th Cir. 1997).

(See alsolJUnited States v. Heidebur,

Furthermore, no evidence was presented

to show that Pecha had any training or that he was an expert in child
pronography, erotica, or human sexuality, to allow him to classify images t
that he selected from the thumb drive as either child pornography or erotica.
"[A] lay witness, unqualified as an expert in human sexuality, cannot
characterize an item as "erotica" because the witness cannot properly
offer an opinion that the defendant gained sexual gratification from
the admittedly (non-pornographic) item." United States v. Caldwell,
1999 U.S. App. LEXIS 7417 *14 (6th Cir. 1999).
The next witness briefly discussed technical information about the modem,
wireless (Wi-Fi) router, and its IP address, found during the search of
Bartunek's residence.

(Trial at 383:1-391:17).

The last witness to testify was Jordan Warnock.

He testified about

his forensic analysis of the hard drive from the computer tower, Ex. 36.
(Trial at 392:5-457:25).

During his analysis, he was able to find file

names with titles that were indicative of child pornography.

16

(Id. at

420:8-427:3, Exs. 40-48).
at 448:12-20).

However, none of these files existed.

(Id.

Wilson objected to the admittance of these exhibits based

on a previous suppression motion, but failed to object to the testimony or
exhibits based on rules 401, 403, or 404.

Again, no 404 v. 403 analysuis

was done, nor was a limiting instruction given.
should never have been admitted.

This testimony and evidence

(See United States v. Chase, 367 Fed.

Appx. 979 (11th Cir. 2010)) (where titles of video files that suggested
that they may contain child pornography were not admissible).
Finally in

closing, Norris included the same "prior act" evidence

as he did in his opening statements.

(Trial at 482:18-495:4, 503:15-509:24.) y „

These included 1) doll and underwear evidence (Id. at 492:20-494:4, 504:1020

506:5-8); 2) child erotica (id. at 483:22-484:5, 494:5-14, 504:10-20,

506:9-11); and 3) file names of noneexistent files (Id. at 508:11-509:15).
Although the government did not bring up the S.P. evidence, Wilson did:
"I would just simply suggest to you that if the government's case was
so strong against Mr. Bartunek, why bring in somebody to raise
allegations from 2000, 1999-2000, 18 years later? And remember, you
heard it from [S.P.], that even though charges were filed against
Mr. Bartunek, they were dismissed. That would suggest to you that
the veracity of these claims by [S.P.] is suspect at best'and —
wrong, false, in his position, at worst." (Trial at 497:17-498:1).
The government made it clear that this prior act evidence was meant to show
that Bartunek was a bad person deserving punishment, which heavily influenced
the jury.

Norris told the jury:

"He [Bartunek] has a desire. He has an urge ... As a matter of fact,
if anybody brought a child to visit a place [Bartunek1s residence] ii
like that, they would have to be seriously looked at as far as once
they entered and saw what the officers observed on the day [of the
search]." (Trial at 493:15-494:4).
This "other act" evidence: was emphasized;^throughout, the entire:trial.

The

government used it in it opening statment, and by soliciting testimony and
evidence of these acts by four witnesses,,and again in its closing statements.
17

Unlike the evidence intrinsic to the charged crimes/ attention was drawn
to this "other act" evidence over and over again by the sidebar discussions,
leaving jurors to speculate on what other horrible things were being hidden
from them.

And, without immediate limiting instructions, or none at all,

jurors had, pleanty of time to from a false belief that Bartunek was a bad
person deserving to be punished.

There is little doubt that this "other

act" evidence greatly affected the jurors, and was used improperly as
character and propensity evidence, and was unfairly prejudical.
Testimony of Bartunek's prior "bad acts constituted significant
portions of these witness' testimony and was front-and-center in the
trial. We cannot say that the jury-..was, not substantially swayed by
the inadmissable evidence? and that it limited its inquiry only to
the evidence relevant to the case." United States v. Heidebur,
122 F.3d 577, 581 (8th Cir. 1997).
:
F.

The Court of Appeals Ruling —

----

The Court of Appeals ("COA") ruled only on three of the "other act"
evidence: 1) admission of photographs of the dolls; 2) admission of
testimony from S.P.; and 3) the courts denial of Wilson's motion for a
mistrial based on Pecha's testimony of the 2013 Crimestoppers Tip.
It is very clear that the doll evidence was admitted as res gestae
evidence, not 404(b) evidence.

(Trial at 10:25-11:23, 211:12-212:13).

However, the COA ruled on its own accord, that it was not res gestae
evidence, but rather 404(b) evidenc showing motive.

The COA stated that

Bartunek derived "gratification from replicas of young children", and
thus, he. was .more inclined or more likely to derive gratification from
child pornography.

(See Appendix [1|| at p. 4]).:: However, this is clearly

the definition of propensity evidene, forbidden:.by Rule 404.
Propensity is defined as a "disposition or inclination to some
action, course of action, habit, etc." (The Oxford English
Dictionary 637 (2nd Ed. 1989).

18

Propensity is also defined as the "likelyhood that one will engage
in [a particular] act." Thomassan v. Perry, 80 F.3d 915, 939-40
(4th Cir. 1995).
In addition to this, if one accepts the COA's reasoning, this presents
the jury with a logical circular paridox like the "chicken and the egg"
— which came first — confusing the jury, which is forbiddent by Rule 403.
The COA did acknowledge that the court erred in not giving a limiting
instruction.
was harmless.

(See Appendix [1] at p. 4-5).
(Id. at p. 5).

However they ruled that it

In light of the fact that this evidence was

flaunted over and over before the jury (Trial at 113:17-23, 211:12-219:23,
221:6-222:11, 227:8-230:12, 232:10-233:14, 241:23-243:21, 315:2-316:22,
324:17-19, 376:15-16, 492:22-494:4, 504:10-20, 506:5-8), and considering
the affect of the dolls on the minds of seasoned judges, as evidenced by
the detention hearings (02/23/2017 Hearing at 17:22-25; 02/28/2017 Hearing
at 13:21-23), it can hardly be said that this evidence didn't seriously
invoke a highly emotional response to punish Bartunek for having such
"wierd" and "concerning" thoughts.

(Id.).

The most distrubing thing about both the district court's and the
COA's decisions was not that court rules were violated, but rather that
both courts acted as mind readers.

There was no evidence presented to

show Bartunek's "state of mind" regarding the dolls.

Even if there was,

and regardless of the reason why he had the dolls, the government had no
business admitting this evidence.

The courts violated Bartunek's First

and Fourth Amendment rights in doin so.

The people have the right to be

safe and secure in their own homes (Amendment IV of the U.S. Constitution),
and the government "has no business telling a man, sitting alone in his own
house, what books he may read, or what films he may watch", or whatttoys
or clothes or any legal objects he may possess.
19

Stanley v. Georgia,

394 US 557, 565-66 (1969).

"Our whole constitutional heritage rebels at

the though of giving government the power to control men's minds.

(Id.).

(See also Amendment I of the U.S. Constitution).
The COA ruled that the S.P. testimony was admissable under Rules
404(b) and 414, and not subject to the exclusion under 403.

However, as

stated previously, the S.P. alleged acts were not supported by sufficient
evidence to be admitted under any rule of evidence.

According to the COA,

the testimony was admissible under Rule 414 because it involved child
pornography.

However the olther alleged "bad acts", I.e. that the

defendant gave S.P. alcohol, cigarettes, marijuany, and "other gifts",
were not allowd under 414.

This evidence only served to show that Bartunek

was using these as grooming tools for the alleged sexual assaults.
could argue they were res gestae evidence.

One

The problem with that analysis

is that while they may have been res gestae evidence for the alleged
assaults, there were not for the child pornography.

And since S.P. was

at least 14 years old at the time, this was forbidden propensity evidence,
inadmissible under either Rule 404 or 414.
The COA then stated that it was not an:-error in declining sua sponte
to strike evidence that Bartunek had an underage "victim."

However, the

COA ignored the fact that Wilson did object a second time under Norris
redirect, but was overruled after a lengthly sidebar.
275:10).

(Trial at 269:1-

Furthermore, like S.P • / the "victim" was also 14 years or older

at the time, making this evidence inadmissible under Rules 404 and 414.
(See Appendix [3] at p. 9-10).

There was no 403 analysis done regarding

this evidence, nor was a limiting instruction given.

The COA also ruled

that the S.P. evidence was not unfairly prejudicial because it was 414
evidence.

However, the alleged sexual assaults were not 414 evidence,
20

and"-were extremely unfairly prejudicial.

Furthermore, the "other victim"

evidence came as a surprise to Wilson, as he asked S.P. to repeat his
allegation.

(Trial at 268:3-5).

Wilson abruptly ended his cross­

examination, and failed to challenge S.P.'s verasity or present available
eviednce which contradicted S.P>'s claims.

(Td. at 267:23-268-:23).

"If, for example, the "bad act" proffered came as a suprose to the
defense, surely Rule 403 would preclude admission, absent unusual
circumstances." United States v. Ameri, 297 F. Supp. 2d 1168, 1169
(8th Cir. 2004).
Allowing this evidence was not only a violation of court rules, but also
of Bartunek's due process rights and the confrontation clause of Amendment
VI of the U.S. Constitution.
Raping is more serious-and thus more prejudicial- offense than child:
pornography and thus "inflamed the jury" and ran "the risk of confusing
the issues" in the trial and "waisted valuable time" which it did.
United States v. Johnson, 238 F.3d 138, 156 (3rd Cir. 2002).
The 2013 • Crimestoppers Tip was offered as res gestae evidence as
background and context.

The alleged purpose of Pecha's testimony was to

explain why Pecha was assigned to the case.

(Trial at 199:4-201:15).

However this was totally irrelevant under Rules 401 and 402 in proving the
crimes Bartunek was charged with.

The COA ruled that the 2013 Crimestoppers

Tip testimony was allowable in its entirety, and that denying-. Wilsonls::; motion for mistrial was not in error.

However, as previously stated, this

testimony was basedr on an anonymous tip that was not supported by evidence
required for it to be admitted under any rule of evidence.

The ruling

was based soley on the objection to the traffic.: cone with CHIMO ("CHIld
MOlester) written on it.
his motion.

But this was not the reason that Wilson gave for

His objection and motion was because Pecha brought up that the

tip was for child pornography,

(ID. at 281:8-10, 287:25-288:24).

This was

hearsay evidence not allowed under Rule 802, and was admitted in violation

21

of the confrontation clause of Amendment VI of the U.S. Constitution.
COA also stated that the testimony was relevant to "evasiveness."

The

However,

this is character evidence, inadmissable under Rule 404, and not admissable
under Rule 414.

The COA did rule that the CHIMO evidence was inadmissable

hearsay evidence, but because Wilson failed to object at the time, his
objection was untimely, and the error was forgivable.
The COA ruled that any errors made were "harmless errors" because they
did not result in unfair prejudice, and they affirmed the judgment of the
district court.

The COA also ruled that there was no abuse of discretion

in denying a mistrial in light of the "extensive" evidence of child
pornography and other evidence.

However, they ignored the fact that when

these errors were committed, several of Barutnek's constitutional rights
were violated.
REASONS FOR GRANTINGTHE PETITION
I.

Whether the Federal Rules of Criminal Procedure are
Unconstitutionally Overbroad and Vague

This question includes several subsidary questions relevant in
answering this broad question.

Some of these questions have been answered

in part by various circuits, however, their answers., were inconsistent.
It is important that the Supreme Court clear up these inconsistencies in
the law in order to make sure that justice is equally applied throughout
the entire United States.
A.

The subsidary questions follow:

Whether Rule 404 is unconstitutionally overbroad and vague, as

it allows evidence to be admitted that is: 1) obtained from an illegal
search and seizure; 2) from irrelevant legal items such as stories, pictures,
dolls, toys, clothing, objects of a sexual nature, etc • / that were not
used in a crime or other bad act; 3) admitted under Rule 404(b)(2) as non22

propensity or non-character evidence, but actually used as forbidden
propensity or character evidence; 4) not relevant to an actual issue in
dispute or an element of the crime; ?:or 5) admitted without a limiting
instruction.
B.

When evidence is admitted for a limited purpose, is it plain

error, in abscence of manifest waiver, to omit an immediate cautionary
instruction?
C.

Was the res gestae evidence used to circumvent Rules 403 and 404

to allow the goverment to used the evidence of other acts as propensity
and/or character evidence, and thus avoid any limiting instructions?
D.

Whether "other act" evidence admitted under the wrong ruleof

evidence is a reversable error.
E.

When evidence is admitted under Rule..404 and/or 414, but in doing

so, allows inadmissible evidence as propensity and/or character evidence,
not allowed under Rule 414, results in a reversable error.
F.

Whether it is reversable error to admit other act evidence when

the 403 balancing was not done, or done improperly..
G.

Whether this extrinsic "other act" evidence, and other :i

inadmissable evidence, and only this evidence, taken as a whole, "inflamed
the passions of the jury" and led them to believe that Bartunek was a "bad
person" who deserved to be punished, causing the jury to render an unfair
verdict.
H.

If the Federal Rules of Criminal Procedure are not overly broad

or vague, why are they so often violated by the courts?
This case

demonstrates how easily the justice system can be

manipulated by an overzealous prosecutor, together with ineffective counsel,
and a biased judge, to not only violate Federal Rules of Criminal Procedure,
23

but also violate a defendant's constitutional rights and his right to a
fair trial.

And/ because these Rules are so overbroad and vague, virtually

anything and everything can be admitted in a trial: in.violation of these
rules.

And, once a defendant has been convicted based on this inadmissable

evidence, it can take years to correct this miscarriage of justice, if
it happens at all.
The only recourse available to the defendant is through the Courts of
Appeals.
fairness.

But they too struggle to apply these Rules with consistency and
According to Rule 102:

"These rules should be construed so as to administer every proceeding
fairly, eliminate unjustifiable expense and delay, and promote the
development of evidence law, to the end of ascertaining the truth and
securing a just determination." (Rule 102).
However, if these rules are broken, no one but the defendant pays the price.
In most cases, as this one, the errors are simply dismissed and labeled
as "harmless Errors".

The court's reasoning is that the defendant still

would have been found guilty, if the inadmissible evidence is ignored.

An

error could hardly be called harmless which resulted in Bartunek being
imprisoned for 17.5 years, based on this evidence.

If this evidence was

truely "harmless" this implies that the evidence was "irrelevant" to the
defendant's guilt or innocense, and thus, also violated Rules 401 and 402.
"Evidence is relevent if: a) it has a tendency to make a fact more or
less probable than it would be without the evidence, and b) the fact
v is of consequence in dertermining the action. (Rule 401).
"Relevant evidence is admissible unless any of the following provides
otherwise: the United States Constitution; a Federal Statute, these
rules, or other rules presented by the Supreme Court. Irrelevant
evidence is not admissible. (Rule 402).
And, theseilharmless errors also imply that the evidence causing them had
little or no probative value, waisted time, and introduced undue delay of
the trial, violating Rule 403.
24

"The court may exclude relevant evidence if its probative value is
substantially outweighed by a danger of one or more of the following:
unfair prejudice, confusing the issues, misleading the jury, undue
delay, waisting time, or needlessly presenting cumulative evicence."
(Rule 403).
These Rules contain several ambiguous words such as tendency, more, less,
consequence, may, substantially, unfair, undue, needlessly, etc.

This

lack of specificity has led to an ever increasing amount of inconsistent
rulings regarding the admissablility of evidence.

And even when the rules

are broken, the courts can ignore them by simply labeling the errors as
"simple", and thus escape any accountability.
"In a trial by
moderator, but
proper conduct
United States,

jury in a federal court, the judge is not merely a
is governor of the trial, for the purpose of assuring
and determining questions of law." Ballenbach v.
326 US 607, 612 (1945).

It appears that our courts have taken the approach that the "ends justify
the means".in administering justice, excusing their violations of these
Rules, in order to get a conviction, no matter the cost to individuals
or society in general.
A1,

Rule 404 Irregularities

Several items seized from Bartunek's residence were admitted in the

trial as both intrinsic and extrinsic evidence.

However, they were seized

illegally pursuant to an unconstitutional .search warrant.

The legality of

this warrant was previously discussed.
2.

Many of the items seized were obtained illegally, regardless of the

validity of the search warrant.

These included the doll and underwear

evidence, adult pornography, and alleged child erotica.

None of these items

were listed in the warrant, nor were they used in a crime or bad act or
of a criminal nature.

Courts routinely use these kinds of objects that are

legal to own and possess as evidence of a crime.

25

While some courts allow

thier admission/ others do not.

And when they are ommited in error/ some

courts rule that the error(s) were harmless/ and others do not.

Cases

like Bartunek-.s case, which show these inconsistencies can be found in
both state and federal courts:
See, e.g.> Jenkins v. Commonwealth of Kentucky/ 275 S.W.3d 226
(Ky.App. 2008) (A new trial was granted when the trial court erred
in admitting evidence of pornography and sex toys from defendant's
house.); State v. AdamO/ 2O18-NMCA-013, 409 P.3d 1002(N-M Ct. App.
2017) (Sex toys and male enhancement products were irrelevant to
receipt and possession of child pornography.); Warr.v. State/ 418
S.W.3d 617 (Tex. App. 2009) (Sex toys were erronously admitted which
constituted plain error); United States v. Christie/ 624 F.3d 558
(3rd Cir. 2010) (Children's toys were admitted in error because they
were extremely prejudicial.); Guam v. ShymanovitZ/ 157 E.3d 1154
(9th Cir. 1997) (Reversal was mandated because condoms/ a box of
surgical gloves/ tube of K-Y jelly/ children's underwear/ a calendar/
and legal sex magazines were not "bad acts."); United States v.
Hinkel/ 837 F.3d 111 (1st Cir. 2016) (Photos of Hinkel wearing
woman's underwear and a child's tutu were of no probative value.);
United States v. Schneider/ 817 F. Supp. 2d 586 (3rd Cir. 2011)
(A faun figurine was admitted under a bizzar theory/ and a legal
film called Nijinsky was highly prejudicial.); United States v.
Evans/ 802 F. 3d 942 (8th Cir. 2015) (Stories of adult men engaged
in sexual acts with minors were admitted in error.); United States v.
Langley/ 549 F.3d 726 (8th Cir. 2008) (Photographs of a partially
nude to nude girl were admitted in error.); United States v. Hentzen,
638 Fed. Appx. 427 (6th Cir. 2015) (Child erotica was not probative
of any material issue.)j
3.

"Admissability is keyed to the issue for which the evidence

is offered."

United States v. Gomez/ 763 F.3d 845/ 858 (7th Cir. 2014).

But/ as in this case, an overzealous prosecutor can easily convince an
already biased judge to admit character propensity evidence disguised as
404 or res gestae evidence.

"During trial/ counsel fairly bears the heavy

burden of guarding against misuse of evidence^"
693 f.2d 189, 197 n. 35 (D.C. Cir. 1982).

United States v. Lewis/

However, Wilson failed to do so.

This allowed the government to "parade past the jury a litany of
potentially prejudicial similar acts that have been established or
connected to the defendant only by unsubstantial innuendo."
Huddleston v. United States, 485 US 681, 689 (1988).
According to the government, the doll and underwear evidence, the 2013
26

Crimestoppers Tip testimony, and the S.P. testimony were introduced as
404 evidence to show intent.

"Intent is perhaps the one most likely to be

tangled up with improper propensity uses."

Gomez at 858.

Clearly, the

adult pornography, alleged child erotica, and the file names of non-existent
flies were also 404 evidenc, although Wilson failed to object to this
evidence on that basis.
under Rule 404(b).

Unduly prejudicial evidence might be introduced

Michelson v. United States, 335 US 469, 476 (1948)..* .--Based

soley on this extrinsic evadence, and ignoring the intrinsic child
pornography evidence, it is a certain as it was in Bartunek's "bail hearing,
that this evidnece was not used as non-propensity evidence, but as unfairly
prejudicial propensity evidence to show that Bartunek was a "bad man" and
needed to be punished for these other "bad acts", reguardless of the truth
of this, or any other evidence.
"Even when 404(b) evidence is admitted properly, but is then used
improperly to show propensity, we have found the error to be
harmful." Gomez at 866.
Rule 404(a)(1) states:

Rule 404 has two parts, (a): and (b).

"Prohibited Uses: Evidence of a person's character or character trait
is not admissable to prove that on a particular occasion that the
person acted in accordance with the character or trait." (Id.)
This is called propensity evidence.
absolute.

Clearly, this part of the rule is

Like 404(a)(1), 404(b)(1).absolutely prohibits crimes, wrongs,

or other acts to prove propensity.

However, Rule 404(b)(2) states in part:

"Permitted Uses; ...This evidence may be admissible for another
purpose, such as proving motive, opportunity, intent, preparation,
^
plan, knowledge, identity, absence of mistake, or lack of accident ...
(Id.).
This is called non-propensity evidence.
two-fold.

The problem with this Rule is

Clearly, the plain language of the Rule absolutely prohibits

propensity evidence. On the other hand, it "may" or may not allow

27

non-propensity evidence.

When it may and when it may not be used is unclear.

Another problem is that a "wrong" and "other act" are so vague that the Rule
allows the government to introduce evidence based on fabricated and bizzar
theories/ including a person's fantasies.
"A person's inclinations and fantasies ... are his own and beyond the
reach of government...!' Jacobson v. United States/ 503 US 540/ 551552 (1991).
Evidentiary problems arrise when evidence can be used as both propensity and
non-propensity evidence.

Rule 404(b)(2) seems to allow this kind of evidence

to be admissable.
"But if subsection (b)(2) of the rule allows the admission of other
acts whenever they can be connected to the defendant's knowledge/
intent/ or identity (or some other plausible non-propensity purpose)/
then the bar against propensity evidence would be virtually
meaningless." Gomez at 855.
Looking at the 2013 Crimestoppers Tip/ it was introduced as res gestae
evidence as "background and context."

And yet Pecha was allowed to present

unproven hearsay evidence that Bartunek possessed child pornography and was
a CHIMO (CHIld MOlester).

The unproven S.P. allegations did more than

accuse Bartunek of possessing child pornography.

S.P. was allowed to testify

that Bartunek corrupted his morals by allowing him to have alcohol/
cigarettes/ and marijuana/ as well as watch child pornography.
262:4-264:5).

Clearly this is prohibited propensity evidnece under Rule

404(a)(1) & (b)(1).
evidence.

(Trial at

But

that was not the end of the prohibited propensity

S.P claimed he was "tramatized" by the child pornography/ implying

this cause him to assault other boys.

(Id. at 265:21-25).

Then he went

even further/ claiming that Bartunek sexually assaulted another individual
that he also assaulted.

(Id. at 268:1-5).

It takes very little imagination

to jump to the conclusion that S.P. was assaulted by Bartunek.

However,

was not on trial for corrupting the morals of a youth or for sexual assault.

28

And yet/ if the jury believed S.P • / there is little doubt that they would
let Bartunek go unpunished for these prior acts this time.

(The charges

v were dismissed.).
"When one looks beyond the purposes for which the evidence is being
offered and considers what inferences the jury is being asked to draw
from that evidence/ and by what chain of logic/ it will sometimes
become clear ...that despite the label/ the jury is essentially being
asked to rely on the evidence as.proof of the defendant's propensity
to commit the charged offense." United States v. Lee/ 724 F.3d 968/
978 (7th Cir. 2013).
4.

According to the government/ the 404(b) and 414 evidence was admitted

to prove intent.

The COA ruled that the doll evidence was admitted to prove

motive. , However/ neither intent nor motive were at issue because Bartunek
plead not guilty to the crimes/ and he denied any possession of child
pornography.

(Trial at 17:16-2).

resting his case.

Wilson presented.no. defense/ simply

(Id. at 476:4-9).

"presumption of innocense."

In Closing/ Wilson simply relied on the

(Id.‘ at 496:7-23).

•

"Intent is not at issue/ however when the defendant specifically
denies only the criminal act...Rule 404(b) evidence on the issue of
intent is not admissible." United States v. Sumner/ 119 F.3d 658/
660 (8th Cir. 1997).
"Where motive is not an element of [the crime]/ proof of motive is not
relevant and thus not admissible." Shannon v. Koehler/ 2011 U.S.
Dist. LEXIS 157049 (N.D. Iowa, )ct. 19, 2011).
£'Jn one case, the supreme Court ruled that a fact need not be in dispute to
be admissible, relying on Rule 403 reasons to determine admissiblily.
Old Chief v.. United States, 519 US 172, 179 (1997).

However, Bartunek's

case is distinguished from Old chief because the evidence in that case was
from a proven past crime,not unproven other acts, and it was used as direct
evidence to prove an element of the crime.

In Bartunek's case, intent and

motive were only formal issues, so that proof of the charged crime, itself,
gives rise to an inference of intent and motive.

29

Gomez at 858.

The courts would dismiss an error in admitting this "other act" evidence
as a simple error.

But this implies that the issue in dispute did not

affect the jury's decision, and thus was immaterial and irrelevant, violating
Rule 401(b).

And it would have not probative value, but was unfairly

prejudicial, melead the jury, introduced undue dely, wasted time, and
needlessly presented cumulative evidence/ also violating Rule 403.
Therefore, it follows that "If an issue is not in dispute and not a
direct element of a crime,
government's case-in-chief."
others have not.

other acts evidence is inadmissible as the
Some circuits have adopted this rule, and

Still others, while they have decliend to adopt this rule,

per se, they have looked at the degree to which the non-propensity issue is
actually contested in admissability.

Gomez at 859-860.

For a collection of

: such cases, see the Adendum in United States v. Crowden, 141 F.3d 1202,
1210 (D.C. Cir. 1998);
B.

United States v. Jenkins, 7 f.3d 803 (8th Cir. 1993).

Qmmission of Limiting Instructions

The only evidence for which a limiting instruction was given prior to
its admission was the S.P. testimony.

Although a limiting instruction was

given at the end of the 2013 Crimestoppers Tip, over Wilson's objection,
Judge Rossiter allowed this entire testimony to be given.
"We hold that whenever evidence is admitted for a limited purpose,
it is plain error, in the absence of a manifest waiver, to omit an
immediate cautionary instruction." United States'v. McClain,
440 F.2d 241, 246 (D.C. Cir. 1971).
No limiting instructions were given for the doll and underwear evidence,
or after the S.P. assault allegation was made, or when the hearsay child
pornography allegation and CHIMO evidence was admitted, or for the adult
pornography, the alleged child erotica, or the file names of non-existent
files.

In this case, not only did the court fail make sure the Rules were

followed, but Bartunek's own defense counsel didn't either.
30

"It is a defense counsel's job to alert the court to the potentially
prejudicial evidence/ and to find ways to mitigate that prejudice."
United States v. Lewis, 693 F.2d 189, 197 n. 35 (D. C. Cir. 1982).
Judge Rossiter discussed giving a limiting instruction for the doll evidence,
. but he didn't because Norris convinced him it was res gestae evidence.
"If the court admits evidence that is admissable against a party or
for a purpose—but not against another party or for another purpose—
the court, on timely request, must restrict the evidence to its proper
scope and instruct the jury accordingly." (Rule 105).
However, this rule is of little value if the government convinces the judge
that the scope must not be limited or that no limiting instruction is needed,
or if the defense counsel was ineffective, as was in this case and failed to
make timely requests, or any requests at all.
There were three individuals, the judge, the prosecutor, and the
defense counsel, who were suppossedly "experts" at law, who share the
responsibility of following the Rules,

And yet, the need for timely limiting

instructions was deliberately or inadvertaintly ignored by all three of them;
not once, not twice, but at least seven times. ..Once again the "Rules" failed
to protect Bartunek's rights to a fair trial.
"The danger of prejudicial effect from such [Rule 404]..evidence is so
great that only an immediate and contemporaneious instruction can be
"sufficient to protect defendants." United States v. De Carlo, 458
F.2d 358, 374 (3rd Cir. 1972).
C.

The Res Gestae Evidence Circumvented the Rules of Evidence

It is quite clear from the record that the government deliberately
introduced inadmissible propensity evicence, forbidden ..by Rule 404, under : :
the guise of res gestae, to bypass relevancy under Rule 102, limiting
instructions under Rule 105, and balancing under Rule 403.

In particular,

this was done with the doll and underwear evidence, and the 2013 Crimestoppers
Tip evidence.

Several circuits have criticized the res gestae doctrine, and

some have disapproved it.
!

31

See/ e.g • / _______________________
United States v. Conner/ 853 F.3d 1011/ 1018-21 (7th Cir.
2009) (crediting several critisims of the inextricably entertwined
test and holding that the district cort abused its discretion by
admitting evidence pursuant to this doctrine.); United States v.
Cunningham/ 702 Fed. Appx. 489/ 492 (8th Cir. 2017) ("Rule 404(b)
does not apply to intrinsic [inextrinsicably intertwined] evidence.");
United States v. Ameri, 297 F. Supp. 2d 1168/ 1169 (8th Cir. 2004)
("Inextricably intertwined exception to Rule 404(b) would essentially
nullify the 404(b) restrictions on "bad act" evidence."); United
States v. Green/ 617 F.3d 233/ 248 (3rd Cir. 2010) (The "inextricably
intertwined" doctrine was disapproved.); United States v. Gorman/
613 F.3d 711, 718-19 (7th Cir. 2010) (sameTS
D.

Other Act Evidence Admitted Under the Wrong Rule of Evidence

The COA ruled in this case that it didn't matter what basis or what
Rule was used to admit evidence, as long as they could find some reson to
justify its admission.

(See Appendix

at p. 2-5).

But the fact is that

all of the "other act" evidence was admitted under the wrong basis or Rule.
The COA erred for two reasons.

First, admitting evidence under the wrong

basis or Rule allowed the district court to ignore other rules prohibiting
its admittance, and avoid limiting instructions.

(See C. above).

Second,

allowing the Court of Appeals to "second guess" the trial judge violated
Bartunek's due process rights, and sent a clear message to the district
courts that the "Rules of Evidence don't matter!"
"[T]he district court erred in admitting the evidence on the other
Rule 404(b) bases it listed." United States v. Sumner, 119 F.3d
658, 661 (8th Cir. 1997). And, "it was up to the district court
[not the Court of Appeals] to admit the evidence under the proper
rule of evidence, so it could "conduct the Rule 403 balancing test
in the first instance. It It Id. at 662.
E. Evidence Admitted Under Rule 404 and 414 Allows Inadmissible
Propensity Evidence
Rules 404 and 414 are so overbroad and vague that they allow evidence
to be admitted where admissible and inadmissilbe evidence are intermingled,
violating these and other Rules, and unfairly prejudicing defendants.

In

this case, this was done in admtting both the S.P. and Crimestoppers Tip

32

testimony.

(See A.3. and C. above).

"Even when 404(b) evidence is admitted properly but is then used
improperly to show propensity/ we have found the error to be
harmful. Gomez at 866.
F.

Rule 403 Balancing Was Not Done or Done Improperly

The Rules of Evidence are so vague, as is Rule 403, that judges often
fail to apply it when they should, or when they do, apply it in error.
According to Rule 403, the balancing test should be done whenever any
extrinsic or res gestae evidence is introduced.

However, the Rule 403

balancing was not done in admitting the doll or underwear evidence, the
2013 Crimestoppers Tip Testimony, the S.P. testimony regarding the Alleged
"grooming" and assault, the alleged child erotica, or the file names of
non-existent files.
"Reversal is appropriate only if the trial court failed to engage
in the required balancing process or where it is impossible to
determine from the record whether it did or not." United States v.
Riepe, 858 F.3d 552, 560-61 (8th Cir. 2008).
Not only is it important that judges do a Rule 403 balancing, but in doing
so, it is vital that they examin all the evidence before its admission.
"One cannot evaluate in a Rule 403 context what one has not seen or read"
or heard.

United States v. Curtin, 489 F.3d 935, 958 (9th Cir. 2007).

In this case, Judge Rossiter failed to do so with the S.P. testimony or
the alleged child erotica.

He took the word of the government what S.P.'s

testimony would be, without knowing all the facts of that previous "other
act", which allowed the admittance of unfairly prejudicial evidence. And,
he also allowed testimony solicited by the government from Officer Pecha
about 357 images of alleged child erotica, without viewing all of them,
simply accepting the government's assertion.
"A court does not properly exercise its balancing discretion under
Rule 403 where it fails to place on the scales and personally examine
and evaluate all that it must weigh." Id.
33

G. "other Act" Evidence Should Be Independently Evaluated
In this case, the COA ruled that no matter what errors were committed
or by whom or how many there were/ they were harmless in light of the
extensive evidence supporting the verdict.

However/ every one of the

evendtiary errors affected Bartunek's due process rights to a fair trial.
To say otherwise would be to say that the Rules are meaningless.

For if

the government's case was so strong/ it logically follows that all of the
extrinsic and res gestae evidence had no probative value/ and thus violated
Rule 403 reasons for excluding it.
"The inquiry cannot be merely whether there was enough to support the
result apart from the phase affected by the error. It is rather/
even so/ whether the error itself had a substantial influence.
United States v. Sheldon/ 628 F.2d 54/ 57-58 (D.C. Cir. 1980).
Clearly/ the "other act" evidence wrongly used by the. government in an. .
effort to convince them, that: Bartunek previously commited a crime.
"Improper admission of a prior crime or conviction/ even in the face
of other evidence amply supporting the verdict/ constitutes plain
error impinging on the fundamental fairness of the trial itself."
United States v. Biswell/ 700 F.3d 1210/ 1319 (10th Cir. 1983).
While Bartunek never commited'a prior crime of was convicted of any prior
r-; v~

■

crime/cthe inferences drawn from the "other act" evidence was just as unfair.
These errors cannot be looked at in isolation.

When evaluating the effect

of extrinsic and res gestae evidence on the minds of the jury/ judges need
to look at all this evidence (admitted in error or not), taken as a whole,
independent of other intrinsic evidence, to determine if the trial is fair.
"The disctrict court failed to 'balance the alleged errors against
the record as a whole and evaluate the fairness of the trial' to
determine whether a mistrial or new trial was appropriate."
United States v. McBride, 862 F.2d 1316, 1319 (8th Cir. 1988). See
also: United States v. Green, 648 F.2d 587 (9th Cir. 1981) (where
evedentiary erros, when considered [cumulatively], required reversal.)
H.

Why Are The Federal Rules Of Evidence So Often Violated?

To ask this question is to answer it.
34

The problem is that these

c

Rules are so overbroad and vague that it is virtually impossible for them
to be followed.

And if they are broken/ who suffers—the defendant.

is no accountability in our justice system.
Attorneys always have more fish to fry.

There

Judges are appointed for life.

Our government (which included

prosecutors/ public defenders/ and judges) has abandoned bur Constitution/
and have decided that the only thing that matters is that they "win the
game"/ rather than "how the game is played."
"An accused is entitled to a fair trial that is one properly emplying
the rules of evidence." United States v. Langley/ 549 F.3d 726/
731 (8th Cir. 2008).
The only way to fix the problem is to 1) clarify the Rules of Evidence; and
2) abandon the notion that an error can actually be "harmless".

Our justice

system must treat all evidentiary errors seriously/ and must follow the
Rules/ treating them as if someone's freedom/ or even their life/ depends
on them—because it does.
II.

Whether Warrants Based On Internet Protocol Addresses
Should Be Treated Like Informant's Tips To Police

The Fourth Amendment clearly states that "the people [have the right]
to be secure in the.persons/ houses/ papers/ and effects against unreasonable
searches ..." Id.

When this admendment was passed/ there was no computers/

cell phones/ electronic data/ artificial intellegence/ or the Internet.
Papers/ i.e./ information or "data"/ was kept secure
businesses and other secure places.

in people's homes/

What people did/ read/ looked at/ or •„

said in the privacy of their own homes was their own business/ was free from
the prying eyes of the government.

However/ this personal data has moved

out of our homes and into the "cloud" on the Internet/ store on multiple
servers/ both in the United States and foreign countries such as the
Philippines or China.
35

"However/ the mere act of accessing [the Internet] does not in itself
extinguish privacy expectations." United States v. Heckenkamp/ 482
F.3d 1142, 1146 (9th Cir. 2006).
Never-the-less, recent computer apps such as Facebook, Zoom, Tick-Tock, and
Omegle have made it possible to expose the most intimate details of our
private lives; first to the businesses that control these apps and our data,
and then to the government, without sufficient safeguards in place to
preserve our freedoms guarateed by our Constitution.
When this personal data travels over the Internet, it is tagged with
an Internet Protocol ("IP") address, which is an electronic destinaiton on
the Internet.

These IP addresses identify particular devices or groups of

devices, not a person or an exact physical location,

A single IP address

can be assigned to thousands of devices, seperated over a wide geographical
area, encompasing multiple locations in multiple cities.

And with wireless

technology, a phone, computer, or other electronic device can share this
single IP address to access the Internet, untied to a physical location.
In recent years, law enforcement has relied on electronic evidence
such as IP addresses to help track and identify us when investigating
crimes.. However, both the Police and the Courts are overestimating the
ability of IP address information, without additional corroboration, to
identify a particular location or individual, bringing harm to numerous
innocent people.

(See Appendix [23]).

See, e.g • / Arnold v. MaxMind, Inc • / 216 F. Supp. 3d 1275 (10th Cir.
2016) (where law enforcement misuses of unreliable IP address
information subjected innocent residents of a farm in Kansas to
repeated unreasonable searches based on allegations of child
pornography and a host of other crimes.); United States v. Stanley,
753 F.3d 114 (3rd Cir. 2014) (the government searched an innocent
persons home and computers, looking for child pornography, when
a neighbor was actually using his wireless connection to share the
illega content.); Police Go On Fishing Expedition, Search the Home
Of Seattle Privacy Activists Who Maintain Tor Network, by Ansel
Herz, "The;.Stranger" (Mar. 30, 2106) (where Seattle Police raided
36

an appartment of two innocent people whose IP address was being used
by someone else to distribute a child pornography video.).
This unreliability of this IP address to identify a particular place
or person should be addressed under the law.

Courts and Police must apply

the same skeptism to tips received from informants based on IP addresses
as they do to other tips from informants, such as they do with mail, phone, or
Crimestoppers Tips, where the tipster may or may not be anonymous.

When

Police rely on information form an informant based on an IP address, they
need to include details in their warrant applications demonstrating: 1)
the informant's reliability; 2) corroboration that the Police have obtained;
and 3) the technical limitations of this evidence.
See: Illinois v^ Gates, 462 US 213) (An informant's "verasity",
’'reliability", and "basis of knowledge" are needed in determining
whether probable cause exists for issuing of a search warrant, An ..
independent corroboration of an informant's tip is also needed.);
Franks v. Delaware, 438 US 154 (1978) (A search warrant affidavit
must not contain factual misrepresentations or ommissions relevant
to the probable cause determination.).
In this case, the tip actually came from an unknown computer, via a
probram whose reliability was unknown.(it is well known that computer
programs have errors ("bugs") in them, and are subject to viruses and other
malware, making them act in unreliable ways.).

There was no information

included in the warrant's affidavit regarding the reliability of the IP
address information, or its limitations.

In fact, the information returned

from a subpoena from COX stated that there was uncertainty of the IP address
information, was excluded from the affidavit.
The Government has been.able to convince the Courts that information
from a business is implicitly reliable; that computers make no mistakes;
that information received from NCMEC is reliable; and that IP addresses
are reliable in identifying the scene of a crime or the criminal commitingiit.

37

However/ the courts have been mislead:

a corporations reliability is

dependent on the correctness of their policies and that the people follow
them; computer information is dependent on people who program them/ and
that the information is not compromised; coercing businesses or individuals
to be informants for the government can lead to constitutional violations;
reportingytips through NCMEC doesn't add relibility to the information
reported; and IP addressing information is not implictly reliable.
Because of this/ the courts lack the knowledge and experience ("Common
Sense") needed when evaluating the limitations of our current technologies/
and many individuals have had their Fourth-Amendment rights violated/ c:
causeing undue harm.

This is wrong—and a Fourt Amendment violation—to

search an: individual's house based on uncorroborated assertions that some
crime was committed using an IP address associated with a location or a
person.
III.

Considerations For Granting Review

Bartunek's case presents two related important federal questions
regarding the ability of the "Government" to follow the laws/rules governing
evidence.. The first question deals with laws inside the courtroom and the
due process right to a fair trial pursuant to Amendment V of the U.S.
Constitution.

And/ the second question deals with laws outside the ;

courtroom.,and the right to privacy pursuant to Amendment IV of the U.S.
Constitution.

The underlying question is actually whether or not our

"Government", is above the law.
"In a just society/ those who govern/ as well as those who are
governed/ must obey the law." Leon at 980.
The first question may be too far reaching for the Supreme Court to
tackle.

But the flip-side is that it is too far reacing not to tackle it.

The Fifth Amendment of the U.S. Consitution states in part that:
38

"No person shall [] be deprived of life, liberty/ or property/
without due process of law." Id.
However/ in this case, the Court failed to follow the rules/ depriving
Bartunek of this right.

As previously discussed/ there is much confusion:)

and inconsistency in applying the Rules of Evidence regarding the
admissibility of "other act" and res gestae evidence,

Whether this Court

considers the entire question posed/ or one of the subsidary questions/
these matters touch on several fundamental rights embedded in our
constitutional law—the right to free speech/ the right to privacy/ the
right to confront witnesses/ and the due process right to a fair trial.
(See Amendments 1/ IV/ V, and VI of the U.S. Constitution.).
The second question is much more limited in scope/ however/ it
addresses one of our most deeply held rights—the right to be secure in our
own homes.

The time is right for the Court to take up this question/ and

Bartunek's case is an ideal vehicle for resolving the question presented.
We are on the verge of a technological revolution that will put every
aspect of our private lives in the hands of large corporate giants like
Amazon/ Google/ Facebook/ Microsoft/ Tick-Tock/ Zoom/ etc • / and without
proper safeguards in place/ within
worse/ a foreign government,

the hand of the government/ or even

Both this Court as well

as other state and

federal courts have started to look at these kinds of privacy issues with
these new technologies/ and more needs to be done.
US
(2018)
See/ e.g • / Carpenter v. United States/ 201 LED2D 507/
(where warrantless access of cell phone records fell short of
probable cause; State v. Reid/ 194 N.J. 386/ 945 A.2d 26/ 28
(N.J. 2008) ("We now hold that citizents have a reasonable expecta­
tion of privacy [] in the subscriber [IP Address]tinformation they
provide to Internet service providers ... "/ like COX.; United States
v. Stanley/ 753 F.3d 114 (3rd Cir. 2014) ("Even a person show v.;:.s
subscribes to a lawful/ legitimate Internet connection necessarily
transmits her signal to a modem and/or servers owned by third parties.
This signal carries with it an abundance of detailed/ private informa­
tion about the user's Internet Activity. A holding that an Internet
39

user discloses her "signal" every time it is routed through thirdparty equipment could/ without adequate qualification/ unintentionally
provide the government unfettered access to this mass of private
information without requiring its agent to obtain a warrant.").
This Court's answer to the questions presented herein' will be outcome
determinative in this case/ and its impact will.be widespread*

This Court

should therefore accept this opportunity to decide these important
Constitutional issues.

If the Court feels that the two primary questions

are too broad or vague/ then Petitioner asks the Court to consider a
subset of the primary/subsidiary questions/ as the court deems appropriate.
CONCLUSION
For the foregoing reasons/ the Court should grant this Petition
for a Writ of Certiorari.
Respectfully submitted/

M
Gregory fy.

P P> /i. 1.
tunek/ Petitioner

29948-047
Federal Correctional Instution
P.O. Box 9000
Seagoville/ TX 75159

40

Date

